March 27, 2002

CHARLES E. BRAVO
SENIOR VICE PRESIDENT, CHIEF TECHNOLOGY OFFICER
ROBERT L. OTTO
VICE PRESIDENT, INFORMATION TECHNOLOGY

SUBJECT: 	 Audit Report - Delivery Unit Notification System Application Development
           Review (Report Number EM-AR-02-006)

This report presents the results of our audit of the Delivery Unit Notification System
Application Development (Project Number 01BS009IS000). This audit was a self­
initiated review that was included in our fiscal year 2002 Audit Workload Plan.

The audit disclosed Postal Service program management did not: (1) follow an
established systems development life cycle methodology during testing, (2) produce key
deliverables, and (3) always test critical security features. As a result, the Postal
Service assumed an unnecessarily high risk that the Delivery Unit Notification System
would not be developed according to requirements, and that the information security
assurance requirements would not be independently validated and tested.
Management agreed with our recommendations and has initiatives in progress,
completed, or planned addressing the issues in this report. Management’s comments
and our evaluation of these comments are included in this report.

We appreciate the cooperation and courtesies provided by your staff during the
review. If you have any questions or need additional information, please contact
Robert J. Batta, director, eCommerce and Marketing, at (703) 248-2100, or me at
(703) 248-2300.



Ronald D. Merryman
Acting Assistant Inspector General
 for eBusiness

Attachment

cc: 	 James W. Buie
      Wayne H. Orbke
      James L. Golden
      Susan M. Duchek
Delivery Unit Notification System Application                             EM-AR-02-006
 Development Review



                                    TABLE OF CONTENTS
 Executive Summary
                                                            i

 Part I

 Introduction
                                                                 1

     Background                                                                1

     Objectives, Scope, and Methodology                                        2

     Prior Audit Coverage                                                      2


 Part II

 Audit Results                                                                 4


      Systems Development Life Cycle Methodology Not Always Followed

       During System Testing                                                   4


           Testing of Security Features Had Not Occurred                       4

           Recommendations                                                     5

           Management’s Comments                                               5

           Evaluation of Management’s Comments                                 5


           Unit Test Results and Critical Requirements Were Not Always

            Documented, Retained, or Approved                                  6

           Recommendations                                                     7

           Management’s Comments                                               7

           Evaluation of Management’s Comments                                 7


           Test Environment Different From Production Environment              8

           Recommendations                                                     9

           Management’s Comments                                               9

           Evaluation of Management’s Comments                                 9


           Independent Quality Assurance Representative Not Assigned           9

           Recommendation                                                     10

           Management’s Comments                                              10

           Evaluation of Management’s Comments                                10


      A Key Deliverable Was Not Produced                                      11

      Recommendations                                                         11

      Management’s Comments                                                   11

      Evaluation of Management’s Comments                                     11





                                           Restricted Information
Delivery Unit Notification System Application                       EM-AR-02-006
 Development Review


     Information Security Assurance Validation Not Accomplished
        12

       Recommendations
                                                 12

        Management’s Comments
                                          12

        Evaluation of Management’s Comments
                            13


      Other Observations
                                               14

      Recommendation
                                                   14

      Management’s Comments
                                            14

      Evaluation of Management’s Comments                               15


 Appendix A. Glossary                                                   16


 Appendix B. Management’s Comments                                      18





                                           Restricted Information
Delivery Unit Notification System Application                                                      EM-AR-02-006
 Development Review


                                      EXECUTIVE SUMMARY
    Introduction 	                There are five major stages in the systems development life
                                  cycle. Each stage has several process points that need to
                                  be accomplished to develop a successful project. This
                                  report presents our audit of the testing and information
                                  security process points of the Delivery Unit Notification
                                  System. This is the second report in a series of Office of
                                  Inspector General (OIG) self-initiated reviews of Postal
                                  Service initiatives in the early phases of development. By
                                  early involvement in the process, the OIG can make
                                  recommendations to resolve issues in the early stages of
                                  development prior to system implementation. Studies
                                  indicated that it is up to 100 times more costly to make
                                  changes after a system is placed into production.

                                  Our audit objectives were to determine if the Postal Service:
                                  (1) followed sound systems development life cycle
                                  processes, (2) produced key deliverables as identified by
                                  Postal Service management and industry standards, and
                                  (3) considered appropriate application security features
                                  during the testing and information security process points of
                                  the development of the Delivery Unit Notification System.

    Results in Brief	             Our review of the Delivery Unit Notification System found
                                  that Postal Service program management did not: (1) follow
                                  an established systems development life cycle1
                                  methodology during testing, (2) produce key deliverables,
                                  and (3) always test critical security features.

                                  These problems occurred because program management
                                  did not: (1) always follow existing Postal Service policies,
                                  procedures, and guidelines, (2) adequately define
                                  responsibilities of the development team members, and
                                  (3) designate members of the information security
                                  assurance team and provide necessary training on the new
                                  information security assurance process.

                                  As a result, the Postal Service assumed an unnecessarily
                                  high risk that the Delivery Unit Notification System would not
                                  be developed according to requirements, and that the
                                  information security assurance requirements would not be
                                  independently validated and tested.


1
 A systems development life cycle is a logical process by which systems analysts, software engineers, programmers,
and end-users build information systems and computer applications to solve business problems and needs.

                                                        i
                                             Restricted Information
Delivery Unit Notification System Application                                     EM-AR-02-006
 Development Review




 Summary of                      The deployment of the Delivery Unit Notification System
 Recommendations                 should be delayed until complete testing can be
                                 accomplished and desired results obtained.

                                 We recommended management prepare the business
                                 needs statement, business needs document, and finalize
                                 the requirements document. We also recommended before
                                 testing occurs, all requirements are addressed and traced to
                                 test scenarios and plans, and test constraints identified.
                                 Management should also designate and train members of
                                 the information security assurance team.

 Summary of                      Management agreed with our findings and
 Management’s                    recommendations. Corrective actions have been
 Comments                        implemented for five of the twelve recommendations.
                                 Actions are under way to resolve the remaining items during
                                 fiscal year 2002. Management’s comments, in their entirety,
                                 are included in Appendix B of this report.

 Overall Evaluation of           Management’s comments are responsive to our findings
 Management’s                    and recommendations. We agree with the actions
 Comments                        management has taken to date and the planned corrective
                                 action for each recommendation.




                                                      ii
                                           Restricted Information
Delivery Unit Notification System Application                                      EM-AR-02-006
 Development Review


                                     INTRODUCTION
 Background	                     The Postal Service is developing the Delivery Unit
                                 Notification System to enable customers to make hold mail
                                 and redelivery service(s) requests. In addition, the system
                                 will include a 360-degree feedback process to track
                                 performance and ensure service requests are fulfilled as
                                 required by the customers.

                                 The Delivery Unit Notification System will use and build on
                                 the Call Center Management application, which already
                                 contains much of the infrastructure needed to support the
                                 system. The Call Center Management infrastructure is used
                                 by call center agents and responsible delivery units to
                                 handle three million hold mail and redelivery calls annually.
                                 A customer interface will be developed to capture customer
                                 requests for hold mail and redelivery service(s) and
                                 requests will be stored in the Call Center Management
                                 database.

                                 We reviewed the design phase of the Delivery Unit
                                 Notification System during the testing and information
                                 security assurance processes. At the time of our review,
                                 the Delivery Unit Notification System was scheduled for
                                 implementation in November 2001.




                                 During the testing process, the development team
                                 determines whether a software product meets its stated
                                 functional, technological, and security requirements. The
                                 information security assurance process requires an

                                                  1
                                       Restricted Information
Delivery Unit Notification System Application                                                           EM-AR-02-006
 Development Review


                                    independent team to validate that security policies have
                                    been incorporated into the system. Technical terms used in
                                    this report are described in Appendix A.

    Objectives, Scope,              Our audit objectives were to determine if the Postal Service:
    and Methodology                 (1) followed sound systems development life cycle
                                    processes, (2) produced key deliverables as identified by
                                    Postal Service management and industry standards, and
                                    (3) considered appropriate application security features
                                    during the testing and information security process points of
                                    the development of the Delivery Unit Notification System.

                                    Specifically, to accomplish these objectives, we reviewed
                                    test scripts and plans, design and application requirement
                                    documents, and information security assurance documents.

                                    We conducted audit fieldwork at Postal Service
                                    Headquarters and at the Integrated Business Systems
                                    Solutions Center in Raleigh, North Carolina, from
                                    September 2001 through October 2001. In addition, we
                                    conducted interviews, and reviewed applicable laws and
                                    regulations, as well as industry standards and best
                                    practices.2 This audit was conducted from September 2001
                                    through March 2002, in accordance with generally accepted
                                    government auditing standards, and included tests of
                                    internal controls as were considered necessary under the
                                    circumstances. We discussed our conclusions and
                                    observations with appropriate management officials and
                                    included their comments, where appropriate. We did not
                                    rely on computer-generated data to accomplish our
                                    objectives.

    Prior Audit Coverage            Our September 29, 2000, report, State of Computer
                                    Security in the Postal Service (Report Number IS-AR-00-
                                    004) cited that: (1) many Postal Service managers were not
                                    fully aware of their responsibilities for computer security
                                    and, viewed computer security as the sole responsibility of
                                    the Information Technology office, (2) a lack of security
                                    awareness has resulted in less than sufficient emphasis



2
  Criteria cited in the report included Carnegie Mellon’s Capability Maturity Model, Postal Service’s Software
Process Standards and Procedures, National Institute of Standards Special Publication 800-18, and
Information System Audit and Control Association’s Control Objectives for Information Technology.




                                                      2
                                           Restricted Information
Delivery Unit Notification System Application                                     EM-AR-02-006
 Development Review



                                 placed on planning and budgeting for computer security,
                                 (3) policies and procedures for computer security were
                                 nonexistent, outdated, or oftentimes not implemented or
                                 followed, and (4) the National Information Systems Security
                                 organization did not have computer security enforcement
                                 authority, and was understaffed, under funded, and not
                                 visible postal-wide. Management agreed with Office of
                                 Inspector General’s (OIG) recommendations and was
                                 working on corrective actions.




                                                  3
                                       Restricted Information
Delivery Unit Notification System Application                                                 EM-AR-02-006
 Development Review


                                         AUDIT RESULTS
    Systems                         Program management did not always follow an established
    Development Life                systems development life cycle methodology during testing
    Cycle Methodology               of the Delivery Unit Notification System. Specifically:
    Not Always Followed             (1) system testing did not include tests of all critical security
    During System                   features, (2) all end user requirements were not
    Testing                         incorporated during the development effort, (3) test results
                                    were not always documented, retained or approved, (4) the
                                    test environment did not mirror the production environment,
                                    and (5) roles and responsibilities were not always assigned.
                                    As a result, program management could not ensure that the
                                    system met functional requirements or satisfied end users’
                                    requirements.

                                    Testing determines whether a software product meets its
                                    stated requirements. There are four levels of testing, unit
                                    tests ensure each module works correctly, ?integration tests
                                    examine the development of each subsystem, system tests
                                    examine the entire system, including subsystem interfaces,
                                    system documentation, and overall functionality, to validate
                                    the design requirements have been met. Customer
                                    acceptance testing performed jointly with the end user,
                                    ensure that the system meets the end user’s requirements.

                                    We reviewed the Delivery Unit Notification System during
                                    the design phase testing and information security assurance
                                    processes. At the time of our review, the Delivery Unit
                                    Notification System was scheduled for implementation in
                                    November 2001. Corrective actions for the following
                                    recommendations should occur before the system is
                                    implemented.

    Testing of Security             Program management did not test all critical security
    Features Had Not                features. Specifically, security features such as audit trails,
    Occurred                        encryption, and Secure Socket Layer,3 while specified in the
                                    integration approach and software/hardware architecture
                                    documents, were not included in the testing requirements.

                                    The Postal Service Software Process Standards and
                                    Procedures guideline recommended the testing of all
                                    program, data, security functions/features, and technology
                                    requirements. In addition, other Postal Service system
                                    development guidelines recommended that a master test
3
    Secure Socket Layer is industry standard technology used to protect web communications.



                                                      4
                                           Restricted Information
Delivery Unit Notification System Application                                        EM-AR-02-006
 Development Review


                                plan be developed. This plan would identify tests to be
                                performed, test environment, hardware and software testing
                                requirements, and test roles and responsibilities.

                                Testing of all critical security features did not occur because
                                program management did not map existing test plans to the
                                system requirements document, Postal Service policies and
                                procedures, and applicable laws to ensure all requirements
                                were tested. Further, the Postal Service had not developed
                                a comprehensive testing approach that would have
                                identified all tests to be performed.

                                As a result, there is an increased risk the Delivery Unit
                                Notification System would be implemented with serious
                                security weaknesses. For example, without proper
                                encryption, unauthorized individuals may view Privacy Act
                                protected information.

 Recommendation                 We recommend the senior vice president, chief technology
                                officer:

                                    1.     Identify and list all critical security features by
                                           mapping existing test plans to system requirements
                                           documents, security requirements, as well as
                                           Section 508 of the Rehabilitation Act, Privacy Act of
                                           1974, and Postal Service policies and procedures.

 Management’s                   Management agreed with our recommendation and will take
 Comments                       corrective action by mapping existing test plans as
                                recommended by April 5, 2002.

 Recommendation                     2.     Develop a comprehensive testing approach that
                                           would include tests of all security features.

 Management’s                   Management agreed with our recommendation and will take
 Comments                       corrective action by performing comprehensive testing for
                                the Delivery Unit Notification System which will include
                                testing of all security features. This will be completed by
                                April 5, 2002.




                                                  5
                                       Restricted Information
Delivery Unit Notification System Application                                       EM-AR-02-006
 Development Review




 Recommendation	                We recommend the senior vice president, chief technology
                                officer:

                                    3.	    Modify test plans to include tests of all security
                                           features, perform these tests, and take appropriate
                                           action(s) as required.

 Management’s                   Management agreed with our recommendation and has
 Comments                       taken corrective action by updating the security test plan to
                                include tests for all security features. Management will take
                                additional corrective action by resolving issues or problems
                                identified in test results, and incorporate those results into
                                the security plan and risk assessment documents by
                                April 19, 2002.

 Evaluation of                  Management’s actions taken to date and planned actions
 Management’s                   are responsive to recommendations 1 through 3.
 Comments

 Unit Test Results and          Program management did not always ensure that test
 Critical Requirements          results were documented, retained, or approved.
 Were Not Always                Specifically, unit test results were not documented or
 Documented,                    retained. Further, unit and integration test results were not
 Retained, or Approved          formally approved prior to moving the system into the next
                                phase of testing. In addition, while the development team
                                requested an approved business needs document, business
                                needs statement and requirements document, these
                                documents were in draft and had not been formally
                                approved by the Integrated Business Systems Solution
                                Center group, who had responsibility for developing the
                                system.

                                The Postal Service Software Process Standards and
                                Procedures guideline recommend that unit test results
                                should be documented in preparation for inspection,
                                resolution of issues resulting from inspection, and base
                                lining. In addition, industry best practices recommend that
                                management define and implement procedures to ensure
                                that operations and user management formally accepted the
                                test results. Further, industry best practices recommend
                                that business needs document, business needs statement,
                                and the requirements document are formally approved by
                                the developer, customer, and end user.




                                                  6
                                       Restricted Information
Delivery Unit Notification System Application                                       EM-AR-02-006
 Development Review



                                Test results were not always documented and approved
                                because program management had not followed Postal
                                Service guidelines and industry best practices prior to
                                moving forward with the project.

                                Therefore, the Postal Service has no assurance testing was
                                accomplished and that deficiencies noted during testing
                                were corrected. Additionally, development team members
                                were unable to benchmark new test results against old test
                                results. Further, without an approved business needs
                                statement, business needs document, and requirements
                                document; the Postal Service cannot ensure the system will
                                meet business needs.

 Recommendation                 We recommend the senior vice president, chief technology
                                officer ensure:

                                    4.     Test results are documented, retained, and
                                           approved prior to moving into the next phase of
                                           development.

 Management’s                   Management agreed with the recommendation the
 Comments                       Delivery Unit Notification System project followed Postal
                                Service Software Process Standards and Procedures
                                guidelines regarding documentation of test results. The
                                results of unit and integration test completed as of the
                                September 17, 2001, audit date were documented, retained
                                and provided to the OIG on September 20, 2001. Additional
                                testing including system, security, and Customer
                                Acceptance Testing will be performed by April 25, 2002.
                                These test results will be documented, retained, and
                                approved prior to moving into the implementation phase.

 Evaluation of                  Management comments are responsive to the
 Management’s                   recommendation that the Software Process Standards and
 Comments                       Procedures guidelines were followed for integration tests
                                and these results were provided to the OIG. No unit test
                                results were provided to the OIG during the audit fieldwork.
                                Unit test results were provided to the OIG in March 2002.
                                We agree with the subsequent corrective actions the Postal
                                Service has taken to conduct additional testing and the plan
                                to conduct, document, retain, and approve additional tests in
                                this area.




                                                  7
                                       Restricted Information
Delivery Unit Notification System Application                                                        EM-AR-02-006
 Development Review




    Recommendation 	                 We recommend the senior vice president, chief technology
                                     officer ensure:

                                         5.	     The business needs statement, business needs
                                                 document, and requirements document are
                                                 approved and provided to the development team.

    Management’s 	                   Management agreed with our recommendation and took
    Comments	                        corrective action on September 21, 2001, by ensuring that
                                     the business needs statement, business needs document,
                                     and requirements document were signed off by the portfolio
                                     manager and later provided to the development team.

    Evaluation of                    In response to our audit, the development team did receive
    Management’s                     the proper documents and this action was responsive to our
    Comments                         recommendation. At the time of our fieldwork the
                                     development team had not received copies of the signed
                                     business needs statement, business needs document, and
                                     requirements document. We recommend closure of this
                                     recommendation.

    Test Environment                 Delivery Unit Notification System program management did
    Different From                   not ensure that the test environment mirrored the production
    Production                       environment. For example, hardware components were not
    Environment                      in place for the testing environment to mirror the production
                                     environment.

                                     Based on industry best practices and National Institute of
                                     Standards and Technology Special Publication 800-18,
                                     hardware and software unit, string, and customer
                                     acceptance tests should be conducted in a test environment
                                     that matches the production environment.

                                     The test environment did not mirror the production
                                     environment4 because Postal Service management had not
                                     provided funding for a production environment. Without a
                                     production environment, the development team could not
                                     define hardware and interface requirements for the system.

                                     As a result, the Postal Service had no assurance that the
                                     tested system will operate the same in the production
                                     environment.


4
    The production environment is the staging area or environment for the actual system operation.

                                                       8
                                            Restricted Information
Delivery Unit Notification System Application                                                       EM-AR-02-006
 Development Review




    Recommendation	               We recommend the senior vice president, chief technology
                                  officer:

                                       6.	    Define hardware and interface requirements for the
                                              Delivery Unit Notification System once a production
                                              environment has been established.

    Management’s 	                Management agreed with our recommendation and took
    Comments	                     corrective action on January 29, 2002, by completing an
                                  architectural design document, which included hardware and
                                  software interface requirements.

    Evaluation of                 Management’s actions taken are responsive to our
    Management’s                  recommendation. We recommend closure of this
    Comments                      recommendation.

    Recommendation                     7.     Perform system testing in an environment, which
                                              mirrors the production environment.

    Management’s                  Management agreed with our recommendation; however,
    Comments                      due to a freeze on capital spending, they were unable
                                  to purchase hardware to replicate the production
                                  environment for testing. Hosting of the Delivery Unit
                                  Notification System will now be provided in-house and the
                                  Postal Service will temporarily assign hardware for testing
                                  purpose by April 12, 2002.

    Evaluation of                 Management’s planned actions are responsive to our
    Management’s                  recommendation.
    Comments

    Independent Quality           Program management did not appoint an independent
    Assurance                     software quality assurance representative5 for the Delivery
    Representative Not            Unit Notification System development effort.
    Assigned




5
 The Software Quality Assurance representative independently facilitates the development of defect-free
products that meet all requirements and are delivered on time at the lowest possible cost.



                                                    9
                                         Restricted Information
Delivery Unit Notification System Application                                      EM-AR-02-006
 Development Review



                                The Postal Service Software Process Standards and
                                Procedures guidelines recommend that at project initiation a
                                software quality assurance representative should be
                                appointed to each project.

                                A software quality assurance representative was not
                                appointed because program management did not follow
                                existing Postal Service guidelines.

                                As a result, program management cannot ensure that the
                                development process was appropriately monitored,
                                established standards were followed, and system
                                inadequacies were brought to management’s attention.

 Recommendation                 We recommend the senior vice president, chief technology
                                officer:

                                    8.     Ensure a software quality assurance representative
                                           is appointed to the Delivery Unit Notification
                                           System project.

 Management’s                   Management agreed with our recommendation and took
 Comments                       corrective action on December 14, 2001, by appointing and
                                independent software quality assurance representative to
                                the Delivery Unit Notification System.

 Evaluation of                  Management’s actions taken are responsive to our
 Management’s                   recommendation. We recommend closure of this
 Comments                       recommendation.




                                                 10
                                       Restricted Information
Delivery Unit Notification System Application                                         EM-AR-02-006
 Development Review




 A Key Deliverable              Program management did not ensure a key deliverable, that
 Was Not Produced               is a risk assessment, was produced and reviewed. The
                                Software Process Standards and Procedures guideline state
                                the project manager, with assistance from the business
                                systems manager and project analyst, develop a risk
                                assessment that identifies risks that may impact the cost,
                                resources, schedule, and technical aspects of the project.

                                The information security assurance process required the
                                completion of a risk assessment for all sensitive, critical, or
                                business-controlled information resources. The risk
                                assessment identifies the assets at risk, weaknesses,
                                vulnerabilities, and possible safeguards. Additional risks
                                may be identified as development progresses through the
                                various systems development life cycle stages.

                                Program management did not perform a risk assessment
                                because they believed that completion of the risk
                                assessment requirement under the information security
                                assurance process occurred after testing. However, the
                                information security assurance process requires risk
                                assessments to be performed as the project progresses
                                through the systems development life cycle. Without a risk
                                assessment, certain risks inherent in the system may be
                                overlooked and compromised.

 Recommendation	                We recommend the senior vice president, chief technology
                                officer:

                                    9.	    Complete a risk assessment for the Delivery Unit
                                           Notification System project, which identifies risks
                                           that may impact the cost, resources, schedule,
                                           security, and technical aspects of the project.

 Management’s                   Management agreed with our recommendation and
 Comments                       completed a security risk assessment for the Delivery Unit
                                Notification System. In addition, the Postal Service will take
                                corrective action by April 12, 2002, by documenting any
                                remaining risks and properly managing and mitigating those
                                risks following management guidelines.

 Evaluation of                  Management’s planned and implemented actions are
 Management’s                   responsive to our recommendation.
 Comments


                                                 11
                                       Restricted Information
Delivery Unit Notification System Application                                        EM-AR-02-006
 Development Review




 Information Security           During the information security assurance process, the
 Assurance Validation           Information Systems security officer did not perform
 Not Accomplished               independent validation of security requirements.

                                The new information security assurance process replaced
                                the prior security certification and accreditation review
                                process. The process requires the Certification team
                                prepare the information security assurance package that
                                includes system documentation and test results. In addition,
                                the information security assurance policy requires an
                                independent team that includes the Information Systems
                                security officer, to review the information security assurance
                                package, perform independent validation of assertions, and
                                independently test the system. Upon completion of the
                                review, the Information Systems security officer reviews the
                                information security assurance package, prepares an
                                evaluation report, and forwards any findings to the
                                accreditor.

                                Independent validation of security requirements was not
                                performed because program management had not yet
                                designated members of the information security assurance
                                team and provided them with the necessary training on the
                                new information security assurance process.

                                Independent validation is a critical control to safeguard the
                                integrity, confidentiality, and availability of Postal Service
                                information, and to protect the interests of the Postal
                                Service, its personnel, business partners, and the general
                                public.

 Recommendation                 We recommend the senior vice president, chief technology
                                officer:

                                    10.    Ensure independent testing and validation of
                                           security requirements are performed during the
                                           information security assurance process.

 Management’s                   Management agreed with our recommendation and will take
 Comments                       corrective action by having an independent test group
                                perform independent testing and validation of the security
                                requirements by April 19, 2002.




                                                 12
                                       Restricted Information
Delivery Unit Notification System Application                                   EM-AR-02-006
 Development Review



 Evaluation of                  Management’s planned actions are responsive to our 

 Management’s                   recommendation.

 Comments


 Recommendation	                We recommend the senior vice president, chief technology
                                officer:

                                    11.	 Designate information security assurance team
                                         members and provide them the necessary training.

 Management’s 	                 Management agreed with our recommendation and took
 Comments	                      corrective action on November 16, 2001, by designating an
                                information security assurance team and having those
                                members receive training.

 Evaluation of                  Management’s actions taken are responsive to our
 Management’s                   recommendation. We recommend closure of this
 Comments                       recommendation.




                                                 13
                                       Restricted Information
Delivery Unit Notification System Application                                                    EM-AR-02-006
 Development Review




    Other Observations           Although not part of the testing or information security
                                 assurance processes, the Delivery Unit Notification System
                                 development team used software that had not been
                                 approved by the Infrastructure Tool Kit Requirement
                                 Committee.6 Specifically, the team used the web-based
                                 tools Netscape IPlanet, and Unibar.

                                 The Infrastructure Tool Kit provides guidelines on tools that
                                 support the development, deployment, and management of
                                 distributed applications. It includes a list of tools approved
                                 for use by the Postal Service information technology
                                 architecture and engineering group. All changes to existing
                                 web-based tools names or versions must be approved by
                                 the Infrastructure Tool Kit Requirement Committee.

                                 Program management did not use approved software
                                 because it did not allow for approval of the web-based tools
                                 prior to use. The tools selected were common industry tools
                                 that program management expected to be approved.

                                 As a result, the Delivery Unit Notification System
                                 development team utilized software products that may not
                                 receive continued support from the vendor. In addition, if
                                 the Infrastructure Tool Requirement Committee does not
                                 approve the software, the application cannot be hosted or
                                 used on the Postal Service infrastructure and would have to
                                 be redeveloped.

    Recommendation	              We recommend the senior vice president, chief technology
                                 officer:

                                     12.	 Ensure that all software used in the development
                                          effort is approved by the Infrastructure Tool Kit
                                          Requirements Committee prior to use.

    Management’s                 Management agreed with our recommendation and took
    Comments                     corrective action on October 31, 2001, by having all software
                                 used in the development effort approved by the
                                 Infrastructure Tool Kit Requirements Committee.



6
 The Infrastructure Tool Kit Requirement Committee is composed of information technology and customer
organization technical personnel.



                                                  14
                                        Restricted Information
   Delivery Unit Notification System Application                               EM-AR-02-006
    Development Review




Evaluation of               Management’s actions taken are responsive to our
Management’s                recommendation. We recommend closure of this
Comments                    recommendation.




                                                    15
                                          Restricted Information
Delivery Unit Notification System Application                                         EM-AR-02-006
 Development Review


                             APPENDIX A. GLOSSARY

Term                        Description

Business Needs              Business needs document is a joint client and developer activity.
Document                    Users and clients define in nontechnical, business terms what is
                            needed, how the new system is supposed to behave, and how
                            existing manual and automated systems currently perform.

Business Needs              Business needs statement is a brief statement prepared jointly by
Statement                   the Business Systems manager, client, and end-users to identify
                            the high-level business needs that the system will satisfy.

Certification and           The certification and accreditation team is responsible for working
Accreditation Team          with the customer of the system and developers to ensure that
                            certain basic security controls are incorporated into all sensitive
                            systems during the design and development stages.

Design and                  The design and application requirements document is used to
Application                 verify that requirements and design interfaces have been
Requirements                developed correctly.
Document

Encryption                  Encryption is the conversion of data into a form, called ciphertext
                            that cannot be easily understood.

Information Security        The information security assurance process is the Postal Service
Assurance Process           process for protecting the confidentiality, integrity, and availability
                            of its information resources.

Information Systems         Information systems security officer performs the security
Security Officer            certification process of the system and chairs the security
                            certification committee.

Infrastructure Tool         The infrastructure tool kit requirement committee is composed of
Kit Requirement             information technology and customer organization technical
Committee                   personnel.

Production                  The production environment is the staging area or environment for
Environment                 the actual system operation.

Risk Assessment             An analysis that examines an organization's information resources,
                            its existing controls, and its remaining organization and computer
                            system vulnerabilities.




                                                 16
                                       Restricted Information
Delivery Unit Notification System Application                                     EM-AR-02-006
 Development Review


                  APPENDIX A. GLOSSARY (CONTINUED)
Secure Socket Layer	 Secure socket layer is industry standard technology used to protect
                     web communications.

Software Quality            The software quality assurance representative independently
Assurance                   facilitates the development of defect free products that meet all
Representative              requirements and are delivered on time at the lowest possible cost.

Systems                     A systems development life cycle is a logical process by which
Development Life            systems analysts, software engineers, programmers, and end
Cycle                       users build information systems and computer applications to solve
                            business problems and needs.

Test Environment	           Test environment is utilized by the analysts and programmers to
                            develop and maintain programs.

Test Plans	                 Test plans design and document a set of system tests to ensure
                            that the application system delivered meets all of the requirements
                            identified in the requirements document.

Unit Test	                  Testing determines whether a software product meets its stated
                            requirements. Unit tests make sure each load module works
                            correctly.




                                                 17
                                       Restricted Information
Delivery Unit Notification System Application                   EM-AR-02-006
 Development Review


              APPENDIX. B. MANAGEMENT’S COMMENTS




                                                 18
                                       Restricted Information
Delivery Unit Notification System Application                   EM-AR-02-006
 Development Review




                                                 19
                                       Restricted Information
Delivery Unit Notification System Application                   EM-AR-02-006
 Development Review




                                                 20
                                       Restricted Information
Delivery Unit Notification System Application                   EM-AR-02-006
 Development Review




                                                 21
                                       Restricted Information
